              Financial-Related Audit
Farmers Union Community Development Association, Inc.
           Older Americans Act, Title V
       Senior Texans Employment Program
        July 1, 1994, through June 30, 1999




                                 Office of Inspector General
                                 Office of Audit
                                 Report No.: 06-03-003-03-360
                                 Date Issued: March 14, 2003
Audit of the Senior Texans Employment Program




                                                          Table of Contents


                                                                                                                              Page
Abbreviations and Acronyms ........................................................................................................ii

Executive Summary......................................................................................................................1

Background ...................................................................................................................................4

Objectives, Scope, and Methodology ...........................................................................................5

Internal Controls ...........................................................................................................................6

Findings and Recommendations ...................................................................................................7

1.         STEP Paid and Charged the Senior Community Service Employment Program (SCSEP)
           $135,830 for the Former Executive Director’s Credit Card Purchases
           and Reimbursements Without Supporting Documentation That the Costs
           Benefited the SCSEP. .......................................................................................................7

2.         Mr. Robert Girard Authorized Expenditures of $66,822 of STEP Funds to Subsidize a
           Nonprofit Organization Known as the “People’s Garden Project.”. ..............................16

3.         The Association Received $136,914 in Premium Refunds for Enrollee Workers’
           Compensation and General Liability Insurance but Did Not Credit STEP’s Expenses in
           Accordance with OMB Circular A-122. . .......................................................................18

4.         Mr. Girard Instructed the STEP to Pay $92,063 to Various Individuals and
           Organizations Without Adequate Documentation to Support the Payments Were
           Necessary, Reasonable, or Allocable to the STEP and Without Approval
           of the Association’s Board of Directors. ........................................................................20

5.        The Association Used Excess Grant Funds to Pay STEP Staff Members $131,989
          More Than the Salaries Authorized in Its Grants. ..........................................................22

6.        STEP’s Former Executive Director Diverted $5,062 of STEP Grant Funds for His
          Personal Use....................................................................................................................25

Auditee’s Response to Draft Report ...........................................................................................27




                                                                  i
Audit of the Senior Texans Employment Program



                                    Abbreviations and Acronyms



Association     Farmers Union Community Development Association, Inc.

ATM             Automated Teller Machine

DOL             United States Department of Labor

ETA             Employment and Training Administration

OAA             Older Americans Act

OIG             Office of Inspector General

OMB             Office of Management and Budget

SCSEP           Senior Community Service Employment Program

STEP            Senior Texans Employme nt Program

TRC             Texas Rural Communities

TWC             Texas Workforce Commission




                                                ii
Audit of the Senior Texans Employment Program



                                        Executive Summary


The Farmers Union Community Development Association, Inc. (the Association), a nonprofit
organization principally located in Waco, Texas, is responsible for overseeing and administering
the Senior Texans Employment Program (STEP). STEP’s primary responsibility is to arrange
employment opportunities for eligible persons pursuant to Title V of the Older Americans Act of
1965 (OAA), the Senior Community Service Employment Program (SCSEP). After establishing
worksites for the enrollees, STEP then uses Federal and State funds to pay the salaries of persons
enrolled in the SCSEP program.

This audit was performed because a criminal investigation of STEP’s former executive director,
Mr. Robert Girard, identified significant improprieties during his tenure. Subsequent to our
completing the audit field work, on October 31, 2002, Mr. Girard “agreed to enter a plea of
guilty to an Information, charging him with theft concerning programs receiving federal funds in
violation of Title 18 United States Code, Section 666.” This audit, covering the period July 1,
1994, through June 30, 1999, focused primarily on the STEP program’s administrative and
financial activities under the former executive director’s control. However, we did not review
direct payments to program enrollees.

The audit objectives were to:

        —      determine if costs we audited were allowable and adequately documented, and
        —      review how these costs were classified.

The audit identified $568,680 of unallowable or questionable costs. Brief summaries of the
findings and recommendations are presented below.

Finding 1. As a result of purchases made by Mr. Girard, the STEP paid $124,515 in credit card
charges and $11,315 in cash reimbursements to Mr. Girard with no documentation to support the
payments.

    •       Part A questions $66,623 of travel related costs charged on his credit cards with no
            documentation to support the charges -- $12,016 of this amount are unallowable even if
            documentation had been provided.

    •       Part B discusses $57,892 of nontravel- related credit card transactions that are
            questionable because there was no connection between the transactions and the STEP
            program or its enrollees.

    •       Part C identifies $11,315 in payments made to Mr. Girard by check that were not
            supported by documentation.
Audit of the Senior Texans Employment Program


Finding 2. Mr. Girard used $66,822 of Federal STEP funds to pay expenses of the People’s
Garden, Inc. -- a nonprofit organization of which Mr. Girard was president. The following
People’s Garden costs did not benefit the STEP:

    •    $63,445 salary and expense reimbursements for the People’s Garden manager, and
    •    $3,377 paid to People’s Garden vendors.

Finding 3. During the 5- year audit period, the Association received $136,914 in workers’
compensation or general liability insurance premium refunds. These refunds should have been
credited to the grant from which the premiums were paid but instead were deposited in non-
STEP bank accounts. Two Heartland Lloyd premium refunds for $34,362 were deposited to the
People’s Garden savings and checking accounts. The remaining $102,552 was deposited in an
Association special account. 1

Finding 4. Based on the former executive director’s instructions, STEP paid $92,063 to various
individuals and organizations without adequate documentation to make the payments and
without the Association’s board of directors’ approval.

Finding 5. The Association used excess grant funds to pay STEP staff members $131,989 more
than the salaries authorized in STEP grants during the audit period. These extra salary payments
were not part of the negotiated agreement between Texas Workforce Commission (TWC) and
the Association nor were they mentioned in the employee handbook. Payments included extra
pay at the end of the year, Christmas bonuses, and buyback of annual and sick leave. The STEP
did not document that the Association’s board of directors approved these payments although the
board president’s signature was on each check.

Finding 6. On two occasions STEP’s former executive director directed the program -- based on
false documentation -- to write STEP checks totaling $5,062 that he used to open a brokerage
account in his name and to pay a personal debt.

We provided the appropriate agenc ies with supporting details for the report’s findings with the
draft report.

In Our Draft Report, We Recommended:

We recommended that the Assistant Secretary for Employment and Training disallow questioned
costs of $568,680 2 . Because of the nature of these questioned costs, unless the Association can
provide sufficient, bona fide documentation to substantiate that any of these costs were
necessary, reasonable, and allocable to the STEP grant, we recommend cash recovery of
disallowed costs as opposed to administrative offset against any future State SCSEP grants.



1
  Except for one refund for $4,735 for which we could not determine where the funds went.
2
  The draft report questioned $571,645. However, in response to the draft report, the grantee explained that a $2,965
questioned salary payment for one employee was payment of termination leave. That costs has been removed from
the report’s questioned costs.


                                                     2
Audit of the Senior Texans Employment Program


 Auditee’s Response to Our Draft Report

For the vast majority of questioned costs, the Association responded that no documentation could
be found to support the costs. However, the Associatio n did indicate that it was continuing to
search for other evidence of the former executive director’s travel that would indicate that some
travel expenses would be allowable and for correlating alternative documentation to attempt to
verify some of the other credit card expenses were allowable.

The Association asked that the report’s questioned costs be reduced by $134,835 as follows:

    Ø $33,315 for a payment to TWC for disallowances from a previous Single Audit report
      that covered the same period covered by our audit;
    Ø $73,287 for workers’ compensation premium refunds that the STEP indicates are not
      refunds but compensation for “deputy attorney- in- fact fees;” and
    Ø $28,233 for Christmas bonuses that the grantee says are routine.

OIG’s Conclusion

The payment to TWC for previously questioned costs was made from the checking account into
which the workers’ compensation premium refunds were deposited. Therefore, the payment was
made from Federal funds that had not been properly accounted for. The refunds should have
been credited back to the program to be used for service delivery. Repayment of questioned
costs must be from non-Federal funds.

The compensation for deputy attorney- in- fact fees is no more than premium reductions for the
Association’s keeping its workers’ compensation losses down. Such reductions are credits
against reported costs and are unallowable in accordance with OMB Circular A-122.

 The STEP’s contract budgets with the TWC do not provide for Christmas bonuses, indicating
they were not a planned expenditure. Furthermore, the Association stated it could not find any
documentation that the Association’s Board of Directors or President of Texas Farmers Union
has put into the minutes or by- laws that Christmas bonuses would be given. No provision of
OMB Circular A-122, paragraph 7, “Compensation for personal services,” provides for bonuses
based on holidays. Our position regarding Christmas bonuses remains unchanged

We still recommend that questioned costs of $568,680 be disallowed.




                                                3
Audit of the Senior Texans Employment Program



                                                Background


The U.S. Department of Labor (DOL), Employment and Training Administration (ETA),
provided the Texas Workforce Commission (TWC) with grants funded by Title V of the Older
Americans Act (OAA) -- the Senior Community Service Employment Program (SCSEP) -- to
serve persons 55 years old or over with low incomes and who have poor employment prospects.
Allowable services include:

    •   up to 1,300 hours per year of part-time employment in community service assignments;
    •   job training and related educational opportunities;
    •   opportunities for placement into unsubsidized jobs;
    •   community service assignments include the following activities:
        Ø social, health, welfare, and educational services (particularly literacy tutoring),
        Ø legal and other counseling services,
        Ø personal assistance, including tax counseling and assistance and financial counseling,
        Ø library, recreational, and other similar services,
        Ø conservation, maintenance, or restoration of natural resources,
        Ø community betterment or beautification,
        Ø antipollution and environmental quality efforts,
        Ø weatherization activities, and
        Ø economic development, and
    •   such other services essential and necessary to the community as the Secretary of the
        Department of Labor, by regulation, may prescribe.

TWC contracted with the Farmers Union Community Development Association, Inc. -- a non-
profit organization principally located in Waco, Texas -- to administer the Senior Texans
Employment Program (STEP). STEP provides employment opportunities to eligible persons
under the SCSEP.

During the 5-year audit period, STEP’s average annual Federal funds for the SCSEP was $4.5
million, with approximately 90 percent budgeted for enrollee-related costs, and 10 percent for
administration.




                                                 4
Audit of the Senior Texans Employment Program


                                Objectives, Scope, and Methodology


Audit Objectives

    •   Determine if costs aud ited were allowable and adequately documented.

    •   Review how these costs were classified.

Scope

This financial-related audit included all Federal costs, except direct payments to enrollees,
recorded in STEP’s official accounting records for the period July 1, 1994, through June 30,
1999.

We performed a limited review of STEP’s internal control structure in place during the audit
period. The internal control work was not intended to provide an opinion on STEP’s internal
control structure or reported program costs. (See Internal Controls discussion on following
page.)

The audit work was performed in accordance with generally accepted government auditing
standards.

Methodology

We analyzed:

    •   the Association’s credit card transactions paid by the STEP;

    •   general ledgers for identification of costs categories charged and for unusual transactions;

    •   checks and credit card statements for supporting documentation;

    •   workman’s compensation refunds to identify bank account(s) where refunds were
        deposited;

    •   unusual salary payments that were beyond the biweekly payroll costs approved by the
        Association’s board of directors; and

    •   payments to contract employees or contractors to verify proper documentation of services
        received.




                                                5
Audit of the Senior Texans Employment Program


                                          Internal Controls


This audit was conducted because an Office of Inspector General (OIG) investigation of
Mr. Robert Girard, the STEP’s former executive, identified significant improprieties during his
tenure. In addition to determining the allowability of costs, we tested internal controls related to
how costs were approved and documented. Our internal control review was not intended to
provide an opinion on the overall financial controls in place during the audit period, and no such
opinion is given.

The internal control information was obtained through inquiries of current staff and analysis of
documents from the audit period.

The Association is a nonprofit corporation that receives grants from the TWC to provide rural
Texas residents with services authorized by Title V of the OAA. The Association is controlled
by a president and board of directors; however, the STEP’s executive director is responsible for
the day-to-day operations.

STEP’s former executive director and his administrative assistant bypassed internal controls over
travel, procurement, financial record keeping, and employee compensation, resulting in
significant questionable and unallowable costs being charged to the program. Contributing to the
breakdown of internal controls, and resulting $568,680 of questioned costs for the 5-year audit
period, was a weakness in oversight and monitoring of administrative activities by the
Association’s board of directors.




                                                6
Audit of the Senior Texans Employment Program


                                  Findings and Recommendations



1.      STEP Paid and Charged the Senior Community Service Employment Program
        (SCSEP) $135,830 for the Former Executive Dire ctor’s Credit Card Purchases and
        Reimbursements Without Supporting Documentation That the Costs Benefited the
        SCSEP.



During our audit period, STEP’s former executive director used eight different credit cards,
including his personal credit card, to charge $134,128 -- $19,643 in cash advances and $114,485
for goods or services – to the STEP program. Because of serious documentation problems, the
allowability and cost classification of $124,515 of these credit card charges are questioned --
$66,623 for travel-related costs, and $57,892 for other goods and services.

STEP paid the credit card statements -- primarily from Federal funds or State STEP funds -- with
no receipts or travel documents attached to support the payments. Mr. Girard turned in very few
receipts that identified what was purchased. In many instances, based on the description of the
items purchased, it is obvious the items did not benefit the STEP program.

Mr. Girard obtained an additional $11,315 in travel-related cash advances and other
reimbursements without documentation to support the payments.

A.      STEP paid $66,623 of Mr. Girard’s improper, undocumented travel costs.

Because of a lack of internal controls and his disregard for travel policies, virtually none of the
travel costs incurred by Mr. Girard were documented. Lodging, restaurant, and gasoline charges
made on credit cards he used were not supported by receipts. In addition, Mr. Girard did not
prepare travel vouchers or local mileage forms in accordance with STEP policies. Included in
the questioned costs are numerous repair and maintenance costs for Mr. Girard’s personal
automobiles.

STEP’s travel policy and procedures manual identifies documentation criteria for local and in-
State travel. STEP uses State or Federal travel regulations for high cost areas or travel outside
the State. In all cases, to be reimbursed for lodging and transportation, the traveler is required to
submit actual receipts with the reimbursement request. To reimburse a traveler for meals and
incidentals on a daily basis, STEP’s travel policy allows a per diem payment. Per diem is the
maximum amount that may be reimbursed daily for meals and incidentals. Costs of operating a
personal automobile are reimbursed to the traveler based on actual mileage readings showing
starting and ending mileage readings for all business-related travel. The mileage reimbursement
covers operation and maintenance costs of personal automobiles.

Travel Documentation Criteria : Senior Texans Employment Program, Travel Administration,
Policy and Procedures, Revised 6-30-87, Number 8, provides:




                                                7
Audit of the Senior Texans Employment Program




            a. Receipts for all transportation costs in excess of $5.00 related to the
               reported trip must be attached regardless of the method of payment.
               For example, airline tickets and bus fares.

            b. Receipts are required for all lodging, regardless of the costs. All
               lodging receipts must show ‘paid’ receipts in the name of the
               claimant confirming date or check-out. . . .

            c. Beginning and ending odometer readings must be furnished on a daily
               basis when a privately-owned vehicle is used for official travel. All
               mileage claimed on a travel expense report (or on a time and travel
               sheet) must be confirmed by demonstrated odometer readings. . . .

            d. Beginning and ending time of travel status must be stated regardless
               if per diem or a portion thereof, is claimed or not.

For the 5-year audit period, STEP located only four travel vouchers for Mr. Girard’s trips. Yet,
even these travel vouchers were not supported by documentation and were incomplete.

Travel voucher (TV) number 7110, paid on May 16, 1997, covering the period April 4, 1997, to
April 26, 1997, is an example of an incomplete, undocumented voucher. For TV 7110,
Mr. Girard was reimbursed by check $429.81 -- $351.06 for mileage and $78.75 for per diem.
For the period covered by this voucher, his credit card charges amounted to $886.53 for the
following costs:

    •   $106.51 for gas,
    •   $61.96 for restaurant charges -- some of which were in Waco,
    •   $306.50 for lodging costs, and
    •   $411.56 in cash withdrawals -- including transaction fees.

All of the credit card charges were paid with STEP funds with no offset for the reimbursements
made to Mr. Girard based on TV 7110.

Mr. Girard’s cash advances from automated teller machines (ATM) were not liquidated as
required by travel policies but were recorded as mileage or per diem expenses even though
Mr. Girard charged gasoline and meals on his credit cards. No receipts were attached to TV
7110 as required, yet the voucher was paid even though it did not comply with the Association’s
or State’s travel policies.

Similar problems were identified with Mr. Girard’s other three vouchers.

The rest of his travel expenses, outside these four vouchers, were paid through cash advances
and direct charges to credit cards. In one instance he was reimbursed in cash; however, no
supporting documentation was submitted, and the cash payment was charged to an expense
account in the same manner as ATM cash transactions.


                                                8
Audit of the Senior Texans Employment Program




The following examples of undocumented travel-related costs charged to the STEP
demonstrate the total lack of controls over Mr. Girard’s use of credit cards.

1-A.1 Airfares Not Supported by Travel Vouchers                                $2,881

In accordance with STEP travel policy, in order for STEP to pay a public transportation cost
such as airfare, a receipt must be attached to the travel reimbursement request (ST-102).
Mr. Girard charged 14 transactions for airfares to credit cards, 13 of which were paid with
Federal STEP funds ($2,881). The other transaction ($222) appears to have been paid with State
STEP funds. Since no travel vouchers were prepared for these trips, STEP did not have any
receipts or other evidence for these airfares to document that the costs benefited the STEP. We
question only the airfare costs of $2,881 paid with Federal funds.

1-A.2. Unallowable Automobile Repairs/Service/Auto Parts                       $7,291

During the 5-year audit period, the STEP program paid $7,291 for repairs to automobiles that
STEP did not own. Although most receipts were not available for review, the repairs included
work on a Lincoln Continental that was registered to Mr. Girard. Since the STEP program had
no automobiles, the only explanation for the expenditures is that the repairs were completed on
personal automobiles. Personal costs are not allowable costs to the STEP. Check payments in
addition to the credit card charges were made to Kwik-Tires for unknown services.

1-A.3.   Car Rentals Not Supported by Travel Vouchers                          $3,665

No travel vouchers were filed to support the vehicle rentals, and no receipts were provided to
justify the payments.

1-A.4.   Cash Advances for Mr. Girard Not Supported by Travel                 $19,643
         Vouchers

Mr. Girard used his credit cards to obtain cash advances. The cash advances were charged on
the accounting records to either administrative mileage or per diem depending on Mr. Girard’s
instructions. No travel vouchers or other documentation were provided to support any of these
cash advances. Mr. Girard obtained many of these advances when there was no indication of any
travel activity that would allow for a reimbursement of per diem or mileage. Mr. Girard also
received additional cash advances by STEP checks (see finding 1C).

1-A.5.   Gasoline Charges for Undocumented Travel                              $5,906

The cash advances identified above in item 1-A.4 were charged to either “administrative
mileage” or “per diem.” The mileage charges, if properly documented, should have covered the
cost of gasoline, maintenance repairs, and other costs of operating an automobile. However, in
Mr. Girard’s case, these credit card charges for gasoline were paid by STEP after Mr. Girard had
already received payments through his cash withdrawals and cash advances. No travel vouchers
were filed to support the mileage claim or the gasoline charges. These costs are questioned.


                                                9
Audit of the Senior Texans Employment Program




1-A.6. Lodging Costs Not Supported by Travel Vouchers                          $18,038

No travel vouchers were filed, and no lodging receipts were provided to support the lodging
costs or justify the payments. Furthermore, no mileage logs were completed to indicate that the
trips were business related.

1-A.7. Improper Payments for Lodging at Official Duty Station                   $1,287

No travel vouchers were filed to support that the credit card charges for lodging costs at the
official duty station were for anyone other than Mr. Girard. Lodging costs at an official duty
station are not reimbursable under State or Federal travel regulations. In addition, no lodging
receipts were provided to support the payments.

1-A.8. Parking Fees Not Supported by Travel Vouchers                              $506

No travel vouchers were filed, and no receipts were provided to support the payment of the
parking fees or to show that parking was related to STEP business.

1-A.9. Restaurant Charges Not Supported by Travel Vouchers                      $3,968

STEP uses per diem to cover the cost of meals and incidentals while an individual is in travel
status. These credit card charges were paid without regard to STEP travel policy because no
travel vouchers were filed to claim per diem earned. In addition, many of the individual charges
exceeded the total daily per diem authorized for the location. Without travel vouchers, the
amount that should have been paid to Mr. Girard cannot be determined. No receipts were
provided to support or justify the payment.

1-A.10. Restaurant Charges at Official Duty Station                              $3,438

Restaurant charges at an official duty station are not allowable costs to the program. It would
make no difference if receipts existed for these charges; however, like most other on the credit
card charges, no receipts were provided.


B.      Mr. Girard spent $57,892 for goods that were for his personal use or for a program
        other than STEP.

Mr. Girard used credit cards to incur another $57,892 of expenses not applicable to the STEP.
We found no documentation or receipts to identify what was purchased or how the items
purchased were used to benefit STEP enrollees. Following are brief explanations of each
category of purchases for non-STEP related costs charged to the STEP.




                                                10
Audit of the Senior Texans Employment Program


Air Conditioning System and Service Contract:

On July 3, 1994, Mr. Girard used two credit cards to purchase an air conditioning system and
service contract from Montgomery Wards for $1,142. STEP paid the charges but did not provide
any documentation to support the STEP’s need for an air conditioner, especially since the STEP
occupied leased space.

Arts and Crafts Supplies:

Mr. Girard’s credit cards were used to purchase $180 of arts and crafts supplies between
January 31, 1997, and April 3, 1999.

Auction Merchandise:

In Garfield, Arkansas, Mr. Girard charged $768 on his personal credit card to purchase
something (item unknown) at an auction. STEP paid the credit card bill.

Clothing and Sporting Goods:

Between July 26, 1994, and April 9, 1999, Mr. Girard used his personal and the Association’s
credit cards to purchase $2,340 worth of clothing and/or sporting goods that were charged to the
STEP.

Electronics/Appliances/Toys:

Mr. Girard purchased $7,838 of electronics equipment, supplies, and toys between July 2, 1994,
and September 5, 1998. Most items were purchased in Waco, TX, on Fridays and Saturdays
from Radio Shack, Best Buy, and Mc Duff electronics. Purchases included such items as:
satellite dish, videos (Snow White/Pocahontas /Jungle Kin/Buddy), mini stereo system, camera,
Barbie cruiser, micro cassette recorder, voice activated cassette recorder, coin sorter, and pre-
school play buggy.

Equipment Rental:

Mr. Girard used his credit cards to rent equipment from U-Haul and Brazos Valley Equipment
for $1,847. No documentation was provided to indicate the purpose for the equipment rental.

Feed:

Mr. Girard used his credit cards to purchase $178 of feed at Brazos Feed and Supply from July 2,
1994, through April 29, 1999.

Finance Charges:

The STEP program incurred $107 in finance charges on Mr. Girard’s credit cards. The finance
charges resulted from STEP not paying the balances due when the credit card statements were



                                                11
Audit of the Senior Texans Employment Program


received. In numerous instances, only a partial payment was made on the credit card statement
during one month while the balance was paid the next month. These late-paid balances in some
cases appeared to pay for unallowable program costs; i.e., the charges were crossed out on the
initial bill and not paid, then the unpaid bala nce was paid the next month in an attempt to hide
that the unallowable costs were paid. An example is a charge for “liquor” not paid one month,
but paid the next (unpaid balance).

Firearms::

Mr. Girard spent $596 on firearms/ammo/gun parts that he purchased from West Hurley, NY,
and in Waco, TX. He made five purchases using four different credit cards. At least one
purchase was paid for with STEP Federal funds. Two other purchases appear to have been paid
with State STEP funds. We could not determine what source of funds paid for the other two
purchases.

General Merchandise:

From February 14, 1995, through May 11, 1999, Mr. Girard used four different credit cards to
purchase $2,836 of general merchandise from stores like Kmart, Wal-Mart, Damark, Qua lity
Llama Products, and Walgreens. Most purchases were made on Fridays through Sundays in
Waco, TX.

Gifts and Flowers:

From February 2, 1995, through January 11, 1999, Mr. Girard charged various credit cards
$2,072 for gifts and flowers. These purchases were made all over the United States; e.g., from
Dallas, San Francisco, Atlantic City, etc.

Hardware, Lumber, Lawn, and Farm Supplies:

Between July 4, 1994, through May 8, 1999, STEP paid $20,277 for items such as hardware,
lumber, lawn and garden supplies, and farm supplies purchased by Mr. Girard on various credit
cards. For example, Mr. Girard spent $7,748 for merchandise from Tractor Supply Company.
Based on documentation obtained during the OIG’s investigation, some of the merchandise
purchased included cat food, hoof pick brush, round end tank, horse treats, hose reel, tiller, weed
trimmer, jeans-pro rodeo, pan utility hog, dog biscuits, umbrella buggy top, electric fence tester,
and candy. None of these expenditures benefited the STEP program.

Health Food and Groceries:

Between April 10, 1995, and April 23, 1997, Mr. Girard charged $312 to three credit cards for
health food/groceries. These purchases were mail orders from California and Florida except for
one purchase that he made at HEB in Waco, TX. STEP paid for these charges.




                                                12
Audit of the Senior Texans Employment Program


Household Goods and House ware Purchases:

Between May 17, 1995, and November 2, 1998, Mr. Girard purchased $809 on items identified
as household or houseware goods. For example, on May 17, 1995, Mr. Girard purchased $493
of bedding/bath/kitchen accessories at Sleep Emporium.

Jewelry:

On May 30, 1998, December 14, 1998, and December 23, 1998, Mr. Girard purchased items at
jewelry stores. On each occasion, a different credit card was used. The three charges totaled
$305. STEP paid for these charges.

Liquor, Alcohol, and Bar Supplies:

Mr. Girard purchased $404 of liquor, alcohol or bar supplies using Federal STEP funds between
December 24, 1994, and July 4, 1998, in violation of OMB Circular A-122.

Mail Order Merchandise:

Mr. Girard purchased $4,922 of mail order merchandise from July 11, 1995, through July 25,
1997. No documentation was provided to show how this merchandise benefited the STEP.

Membership Fees:

STEP paid $1,825 in membership fees for Mr. Girard’s credit cards or membership in a shopping
club. This amount does not include the fee for the Association’s primary American Express
Card where other employees also had cards. The fees were paid between July 28, 1994, and
February 19, 1999, to American Express (for four different credit cards) and Damark.

Miscellaneous Purchases:

Between December 19, 1994, and March 30, 1999, Mr. Girard purchased numerous
miscellaneous items worth $3,002. Some of the purchases included books, coffee, discount
vacation package, golf cart repairs, leather goods, and a water utility line. The repairs were to
Mr. Girard’s golf cart. The City of Waco installed the water line on Mr. Girard’s property.
STEP Federal funds paid for these charges.

Office Supplies:

Between August 1994 and May 1999, Mr. Girard used credit cards for $2,130 of office supplies.

Tools:

From July 8, 1994, to April 5, 1999, Mr. Girard spent $2,194 for tools from various mail order
companies and the Ludwig Saw & Tool of Waco, Texas. No evidence was provided to show
that STEP enrollees used these tools or that they were even needed.



                                                13
Audit of the Senior Texans Employment Program


Heart O’ Texas Fair:

Beginning in 1995 through 1998, Mr. Girard charged $1,808 to one of his credit cards for the
Heart O’ Texas Fair. We found no documentation or receipts to tie these expenditures to STEP
activities or enrollees.


C.       Mr. Girard obtained an additional $11,315 in travel-related cash advances and
         reimbursements without documentation to support the payments.

In addition to the ATM cash withdrawals (see finding 1A), Mr. Girard received an additional
$9,333 for per diem and mileage -- $9,065 in cash advances; $268 cash reimbursement -- paid
by checks from the Federal STEP Account. He was also reimbursed another $1,982 for other
costs without documentation. The following schedule details how these undocumented,
reimbursed costs were classified on STEP’s accounting records.

                                  Expense Account Charged Amount
                                  Central Services        $ 325
                                  Enrollee Other              227
                                  Enrollee Safety             130
                                  Per Diem and Mileage      9,333
                                  Supplies                  1,300
                                  Totals                  $11,315

Three STEP checks written as part of this group of checks were very unusual.

     •   Check No. 9506 dated December 23, 1996, for $500 was made payable to Central
         National Bank. The expense was charged to the “Administrative Mileage – Bob Girard”
         expense category.

     •   Check No. 8885 dated November 27, 1997, for $226.23 was made payable to Norwest
         Bank. This expense was charged to the “Enrollee Other” expense category.

     •   Check No. 19459 dated June 15, 1998, for $465.30 was also made payable to Norwest
         Bank. The expense was charged to the “Supplies-Waco Office” expense category.

No documentation was provided to support what was purchased by these payments or how the
charges related to the expense accounts charged.
-------------------------------------------------------------------------------------------------------------------
The credit card payments, cash advances, and reimbursements discussed in parts A, B, or C of
finding 1 were paid with little regard for the Association’s own policies and a complete disregard
of Office of Management and Budget (OMB) Circular No. A-122, “Cost Principles for Non-
Profit Organizations.” Attachment A to the Circular requires that to be allowable charges against
Federal grants, costs must be necessary, reasonable, and allocable to the grant program.
Mr. Girard used STEP funds to pay for a significant number of items that were for his own
personal use. Furthermore, none of the purchases/expenses discussed in parts A, B, or C of



                                                   14
Audit of the Senior Texans Employment Program


finding 1 were supported by documentation such as receipts. However, in many cases even
receipts would not have established a link to the program or its enrollees.

In Our Draft Report, We Recommended

We recommended that the Assistant Secretary for Employment and Training disallow the
following questioned costs unless the Association can provide sufficient, bona fide
documentation to substantiate that these costs were necessary, reasonable, and allocable to the
STEP grant:

    Ø $66,623 STEP paid for Mr. Girard’s improper and undocumented travel costs.
    Ø $57,892 Mr. Girard spent for goods for his personal use or for a non-STEP program.
    Ø $11,315 Mr. Girard obtained in undocumented travel-related cash advances and
      reimbursements.

Because of the nature of these questioned costs, we recommended cash recovery of disallowed
costs as opposed to administrative offset against any future State SCSEP grants.

Auditee’s Response to Our Draft Report

The Association stated that it was unable to find any documentation to support the charges but
were looking for other evidence to establish justification for some of the travel and related
expenses.

OIG’s Conclusion

Our recommendation remains unchanged.




                                                15
Audit of the Senior Texans Employment Program



2.       Mr. Robert Girard Authorized Expenditures of $66,822 of STEP Funds to Subsidize
         a Nonprofit Organization Known as the “People’s Garden Project.”



While nonprofit organizations are used as worksites for participants in the SCSEP programs,
those nonprofit organizations should be going concerns. Other tha n funding the wages/fringe
benefits and any training costs for participants working at those worksites, STEP could have also
paid for minor supplies/tools necessary for the participants to do their jobs. However, the total
subsidization of another nonprofit organization is not one of purposes of the SCSEP.

The audit identified $66,822 of People’s Garden expenses, other than enrollee costs, that were
paid from Federal STEP funds. The People’s Garden, Inc. -- of which Mr. Robert Girard was
president -- was a nonprofit organization that produced vegetables that were donated to Caritas,
another nonprofit organization that distributes food and clothing to financially disadvantaged
individuals. The People’s Garden manager received $63,445 as salary and expense
reimbursements from the STEP. An additional $3,377 was paid to other vendors for People’s
Garden expenses.

A.       STEP made improper payments to the People’s Garden manger.

The People’s Garden project was originally overseen by Mr. Girard and one of his STEP field
supervisors. When the STEP field supervisor’s responsibilities expanded, Mr. Girard hired a
manager for the People’s Garden from January 1995 through July 1997. The People’s Garden
manager was a contract employee who was classified as a STEP field supervisor; however, his
job did not include any of the STEP field supervisor responsibilities. The manager was
responsible for the garden operations including the planting and harvesting of the vegetables.
Each month he submitted a reimbursement request for garden expenses he incurred.

Accounting systems generally have a method of classifying expenses by charging each
transaction to a cost category such as payroll, office supplies, etc. The accounting system at
STEP was designed to accommodate their normal program expenditures; i.e., the only
accounting codes available were “enrollee” or “administrative” codes. Therefore, since the
People’s Garden expenses were neither STEP enrollee nor administrative costs, the STEP
purposely miscoded the expenses.

An example of deliberate miscoding is account 422 (Enrollee Safety and Training). One would
expect the expenses charged to this account would be directly related to program enrollees such
as safety equipment or training programs. However, this was not the case. Of the $12,028 STEP
reimbursed the manager for expenses, the detailed general ledgers indicate $5,442 of the
following expenses was charged to the enrollee safety and training account:

     •   maintenance, repair, and gasoline costs for the va n and tractor used at the garden,
     •   garden supplies such as seeds,
     •   gas purchased for the manager’s personal vehicle which he used for garden related
         purposes,


                                                16
Audit of the Senior Texans Employment Program


     •   lodging and meal charges when it was necessary to make an overnight trip to obtain
         plantings,
     •   refreshment costs for volunteers who donated time to the garden, and
     •   other similar costs.

In our opinion, these expenses were intentionally miscoded in order to hide the improper use of
Federal STEP funds to subsidize the People’s Garden.

All payments made to the People’s Garden manager are unallowable program costs. The
individual was not a STEP field supervisor and had none of the field supervisor responsibilities.
Furthermore, the expenses the manager incurred were not related to enrollee safety or the
operation or administration of the STEP program.

B.       Mr. Robert Girard approved the use of STEP funds for other People’s Garden
         expenses that were not enrollee costs.

In addition to the payments to the People’s Garden manager, STEP paid $3,377 from its Federal
account for other People’s Garden expenses. These expenses were improperly charged to the
following three expense categories:

     •   “Enrollee Other Costs” was charged $1,846. The expenses had nothing to do with
         enrollee costs. The items purchased were garden seed and garden supplies.

     •   “Rent – Waco Office” was charged $1,228. These expenses were also directly related to
         the garden and included rental of welding equipment, tents, and Port-O-Jons.

     •   “Supplies – Waco Office” was charged $303. These People Garden expenses included
         welding supplies, seed, and garden supplies.

It is not the purpose of the SCSEP grant to subsidize the People’s Garden. Therefore, the
$66,823 of costs incurred on behalf of the People’s Garden do not meet the OMB Circular A-122
requirement that to be allowable costs to the grant, the costs must be necessary, reasonable, and
allocable to STEP.

In Our Draft Report, We Recommended

We recommended that the Assistant Secretary disallow the $66,822 and recover these costs in
cash as opposed to administrative offset against any future State SCSEP grants.

Auditee’s Response to Our Draft Report

The Association was unable to justify any payment of expenses to the People’s Garden.

OIG’s Conclusion

Our recommendation remains unchanged.


                                                17
Audit of the Senior Texans Employment Program



3.      The Association Received $136,914 in Premium Refunds for Enrollee Workers’
        Compensation and General Liability Insurance but Did Not Credit STEP’s
        Expenses in Accordance with OMB Circular A-122.

During the 5-year audit period, the Association received $136,914 in workers’ compensation or
general liability insurance premium refunds. These refunds should have been credited to the
grant from which the premiums were paid. Instead, they were deposited in non-STEP bank
accounts. Two Heartland Lloyd premium refunds totaling $34,362 were deposited to the
People’s Garden savings and checking accounts. The remaining $102,552 was deposited in a
special Texas Farmers Union account except for one refund for $4,735. We were unable to
determine what happened to this $4,735 refund because we did not obtain a copy of the canceled
refund check.

The Association’s president indicated that Mr. Girard told him that the refunds belonged to the
Association and that the funds could be used for any purpose. However, OMB Circular
A-122, disagrees with Mr. Girard’s position on the refunds. Attachment A, part A, of the
circular provides the “Basic Considerations” for cost principles that must be followed by
nonprofit grantees and contractors.

              1. Composition of total costs. The total cost of an award is the sum
              of the allowable direct and allocable indirect costs less any
              applicable credits.

                      *         *        *           *    *        *        *

              5. Applicable credits.

              a. The term applicable credits refers to those receipts, or reduction of
              expenditures which operate to offset or reduce expense items that are
              allocable to awards as direct or indirect costs. Typical examples of
              such transactions are: purchase discounts, rebates or allowances,
              recoveries or indemnities on losses, insurance refunds , and
              adjustments of overpayments or erroneous charges. To the extent
              that such credits accruing or received by the organization relate to
              allowable cost, they shall be credited to the Federal Government
              either as a cost reduction or cash refund, as appropriate. [Emphasis
              added.]

Consequently, insurance refunds meet the definition of credits, and the refunds do not belong to
the Association. They must be returned to the Federal funding agency, DOL.

The original insurance premiums were paid from STEP funds and charged to account 412,
Enrollee Workman’s Compensation. The table below identifies each refund, the period covered
by the original premiums, and the accounts where the refunds were deposited, if known.




                                                18
Audit of the Senior Texans Employment Program




        Workers’ Compensation Premium Refunds
                         Period Covered Refund                Refund     Deposit
        Insurance Agency by Premiums     Date                 Amount     Bank Account
        Heartland Lloyd        7/18/95 – 7/18/96     01/02/97 $ 4,735     Unknown
        Heartland Lloyd        7/18/96 – 7/18/97     10/20/97   15,787    People’s Garden
        Heartland Lloyd        7/18/96 – 7/18/97     01/28/98   15,560    Farmers Union
        Heartland Lloyd        7/18/97 – 7/18/98     10/30/98   18,575    People’s Garden
        Heartland Lloyd        7/18/95 – 7/18/96     03/19/98   23,403    Farmers Union
        Heartland Lloyd        7/18/96 – 7/18/97     02/02/99   14,004    Farmers Union
        Heartland Lloyd        7/18/98 – 7/18/99     02/10/00   11,048    Farmers Union
        Heartland Lloyd        7/18/99 – 7/18/00     01/29/01    9,272    Farmers Union
        J.I. Special Risks     98-99 Audit           10/01/99   11,978    Farmers Union
        J.I. Special Risks     Final Audit 99-00     10/13/00   12,552    Farmers Union
        Total Refunds                                         $136,914


In Our Draft Report, We Recommended

We recommended that the Assistant Secretary for Employment and Training disallow the
$136,914. Since the appropriations for the grant funds against which these credits applied have
expired, these unallowable reported costs should be recovered in cash as opposed to
administrative offset against any future State SCSEP grants.

Auditee’s Response to Our Draft Report

The Association indicated that five of the ten checks (totaling $73,287) we questioned were not
refunds but were compensation for “deputy attorney- in- fact fees” in accordance with a “Contract
For Services Of A Deputy Attorney-In-Fact For Heartland Lloyds Insurance Company.” The
Association requested that these costs be removed from our total questioned costs.

OIG’s Conclusion

The aforementioned deputy attorney- in- fact contract, Agreement Section, paragraph 3, provides:

        The Association will be compensated for its loss control services as deputy
        attorney- in- fact based on the effectiveness of its loss control services as
        measured by the ability to meet agreed upon target loss ratios by the
        Association during its policy year. The terms of such compensation and target
        loss ratios are set forth in Attachment A to this contract. . . .

Therefore, the deputy attorney-in- fact compensation is no more than premium reductions for the
Association’s keeping its workers’ compensation losses down. Such reductions are credits
against reported costs and are unallowable in accordance with OMB Circular A-122.

 Our recommendation remains unchanged.


                                                19
Audit of the Senior Texans Employment Program



    4. Mr. Girard Instructed the STEP to Pay $92,063 to Various Individuals and
       Organizations Without Adequate Documentation to Support the Payments Were
       Necessary, Reasonable, or Applicable to the STEP and Without Approval of the
       Association’s Board of Directors.



OMB Circular A-122 requires that costs be documented to show that they are necessary,
reasonable, and allocable to the grant program to be allowable. The costs discussed below did
not meet that standard. Therefore, the $92,063 of costs discussed below are questioned.

A.     Cox and Associates was paid $48,000, ($46,000 from Federal STEP funds plus $2,000
from State funds). The monthly payments were charged to account 412, Enrollee Workman’s
Compensation ($38,000), or account 413, Enrollee General Liability ($8,000). No contracts or
invoices were provided to support the disbursement of these funds. Mr. Robert Girard signed
each monthly authorization to pay Cox and Associates $2,000. STEP staff could not explain
what Cox and Associates did for the program and could not locate a contract to identify services
provided to support STEP enrollees. The $46,000 paid with Federal funds is questioned.

B.      Texas Rural Communities (TRC) was paid $14,800 to provide vaguely defined services
to the Association as part of a joint venture to promote the use of internet web-site development
and computer training in the rural areas. No contracts have been located by STEP to justify or
document how the services benefited the STEP enrollees. The venture appeared to be one of
economic development activities rather than employment activities. Based on information in an
Independent Auditor’s Report dated June 2, 1999, TRC was paid by STEP, then TRC paid
Patrick Cox. No documentation was provided to support these payments except a statement
from Mr. Girard instructing the accountant to pay the amount indicated. To further demonstrate
that these costs are questionable, these expenses were charged to account 412 (Enrollee
Workman’s Compensation), $8,975, and account 416 (Personnel Salaries – Job Developer/Safety
Manager), $5,825.

C.      Payments of $21,088 to one individual were outside the scope of the STEP program.
This individual received his first Federal STEP biweekly payroll check on October 11, 1994. He
continued as a STEP contract employee until May 1996. During this time his salary and related
expenses were charged to the Administrative Salaries - Field Supervisor account. The current
STEP executive director did not know what this individual’s job responsibilities were. No
written contract was available between this individual and STEP to identify the services
rendered. In addition, no documentation was provided to support the payments. We provided
STEP officials with the identity of this individual.

D.     Payments of $10,175 to another individual were outside the scope of the STEP contract.
Administrative salaries and fringe benefits are included in the STEP contracts to pay proper
contract administrative costs. Reportedly, Mr. Girard used this individual to pose as an
unemployed person and seek services from the Texas Workforce Commission (TWC) in order to
evaluate the services senior Texans received at the local TWC offices. This individual
apparently reported on the services he received. Evaluating TWC’s services is not the



                                                20
Audit of the Senior Texans Employment Program


responsibility of, or an allowable activity of, the STEP. According to STEP staff, this individual
was a friend of Mr. Robert Girard at the time he was hired. He was treated as a contract
employee of STEP from September 1998 through May 1999. STEP’s contract did not include
any authorization for the program activity he performed. This individual’s salary was charged to
account 508, Administrative Salaries - Field Supervisor. However, he was not a field supervisor
for the STEP program. He did not appear to have any responsibilities in job development or
supervision of STEP enrollees or worksites. We provided STEP officials with the identity of this
individual.

OMB Circular A-122 requires that costs be documented to show that they are necessary,
reasonable, and allocable to the grant program to be allowable. The above costs have not met
that standard. Therefore, the costs discussed above are questioned.

In Our Draft Report, We Recommended

We recommended that the Assistant Secretary for Employment and Training disallow the
$92,063 unless the Association can provide sufficient, bona fide documentation that these costs
were necessary, reasonable, and applicable to the administration of the STEP. In lieu of such
documentation, we recommended these questionable costs be recovered in cash as opposed to
administrative offset against any future State SCSEP grants.

Auditee’s Response to Our Draft Report

The Association stated it had no documentation to support these payments.

OIG’s Conclusion

Our recommendation remains unchanged.




                                                21
Audit of the Senior Texans Employment Program



5.      The Association Used Excess Grant Funds to Pay STEP Staff Members $131,989
        More Than the Salaries Authorized in Its Grants.



While reviewing the STEP Federal general ledgers for unusual transactions for our 5- year audit
period, we identified $131,989 of STEP staff salary payments other than biweekly salary
payments. These payments were not part of the negotiated agreement between TWC and the
Association nor were they mentioned in the employee handbook. These payments were not
approved by the Association’s board of directors although the president’s signature was on each
check. The payments are broken down into the following four categories:

End of program year bonuses                     $38,670
Christmas bonuses                               $28,233
Accrued vacation time                           $47,188
Unused sick leave                               $17,898


A.      Bonus Payments

Over a 5-year period, $38,670 was paid to staff from funds that were not obligated or spent at the
end of various program years. These payments distributed unspent personnel services funds to
STEP staff in various salary categories.

For example, if unspent salary funds existed in the “personnel salaries – job developer/safety
manager” expense category at the end of June, the funds were disbursed as salary payments to
STEP staff. Administrative staff such as the executive director and his administrative assistant
received payroll checks from the “personnel salaries – job developer/safety manager” expense
category even though they did not perform those job duties. Other staff received additional
payments under similar circumstances. None of these payments appeared to have been approved
by the Association’s board of directors.

An additional $28,233 of salary payments outside the biweekly payrolls were made to certain
staff around December 15, we assume as Christmas bonuses. These extra payments also were
not approved by the Association’s board of directors.

STEP’s former executive director negotiated with the TWC on the budget and funding needed to
effectively administer the program each year based on STEP’s proposed operating costs. STEP
knowingly provided inaccurate cost data during the negotiations with TWC. The former
executive director continuously overstated the number of staff necessary to administer the
program in the budget negotiations. Consequently, excessive salary monies were available each
year to make these extra payments to certain staff.




                                                  22
Audit of the Senior Texans Employment Program


B.      Buy Back of Annual and Sick Leave

During the audit period, $65,085 of STEP funds was used to buy back employees’ unused sick
and annual leave despite personnel policies that prohibit that action. The employees’ handbook
indicates the only time employees will be paid for unused leave would be at the time of
termination, yet, none of the payments were made because of an employee’s termination. The
Association paid employees $47,188 for unused annual leave and $17,898 for unused sick leave.
These payments were generally made at the end of June when the unused leave would be
forfeited.

Page 8 of the Senior Texans Employment Program Employees Handbook establishes the rules
for vacation pay.

             All vacation time up to the four (4) weeks maximum shall be
             considered fully earned on December 31 of each calendar year, but the
             employee will be allowed a grace period of six (6) months to take
             accumulated vacation. Each June 30, the unused vacation carried
             forward from the prior year shall be forfeited.

                      *         *        *      *       *        *        *

             Pay will not be allowed in lieu of the employee foregoing vacation.

Page 10 of the Handbook provides the following about paying emp loyees for sick leave
following termination:

             Upon termination, you will receive one-half of a normal work day’s
             pay for each day remaining in your sick leave reserve.

We found two checks written to Robert Girard on July 22, 1994 (number 1086), and July 29,
1994 (number1051), for $7, 176.10 each (gross amount before deductions was $10,784.64 for
each check). Accounting documentation indicated that the first of the two checks (1086) was
charged as vacation pay. Mr. Girard’s salary was approximately $20.00 per hour so the payment
he received on check 1086 would have covered 548 hours of accrued vacation. However, the
maximum vacation that would have been available at the time, according to personnel policies,
would have been 240 hours – 160 carried over from the prior year and the 80 hours earned in the
first 6 months of 1994. No explanation was provided as to why he was paid for 308 hours
($6,160) of vacation pay more than the maximum that could have accrued during the 18- month
period. Nevertheless, lump sump payment for vacation time is not allowable except at
termination. No documentation was found for the second check (1051). The bank statement as
of July 29, 1994, shows the bank paid both checks during July (25 and 29).

An account payable for $21,569 ($10,784.64 x 2 checks paid in July 1994) was created for the
June 30, 1994, end-of-year books to establish the debt for these payments to Mr. Girard.




                                                23
Audit of the Senior Texans Employment Program


Other staff members were also paid for unused vacation or sick leave that was in violation of
STEP policies and procedures. However, as STEP’s executive director Mr. Girard was aware of
the policies and should not have authorized these payments since the Association had not
changed the policies during the audit period.

In Our Draft Report, We Recommended

We recommended that the Assistant Secretary for Employment and Training disallow the
$131,9893 unless the Association can provide sufficient, bona fide documentation that these costs
were necessary, reasonable, and applicable to the STEP’s administration. In lieu of such
documentation, we recommended these questionable costs be recovered in cash as opposed to
administrative offset against any future State SCSEP grants.

Auditee’s Response to Our Draft Report

The Association stated it could not find any documentation that the Association’s Board of
Directors or President has put into the minutes or by- laws that Christmas bonuses would be
given. However, each year the President of Texas Farmers Union would give the Christmas
bonus checks with the Christmas card to each employee. Therefore, the STEP requests that the
$28,233 for Christmas bonuses be removed from the questioned costs.

No comments were provided regarding the remaining costs except as described in footnote 3
below.

OIG’s Conclusion

Regarding the Christmas bonuses, the STEP’s contract budgets with the TWC do not provide for
Christmas bonuses, indicating they were not a planned expenditure. Furthermore, the STEP
officials stated they could not find any documentation that the Association’s Board of Directors
or President of Texas Farmers Union has put into the minutes or by- laws that Christmas bonuses
would be given. No provision of OMB Circular A-122, paragraph 7, “Compensation for
personal services,” provides for bonuses based on holidays.

Our recommendation remains unchanged.




3
  The draft report questioned $134,954. However, in response to the draft report, the grantee explained that a $2,965
questioned salary payment for one employee was payment of termination leave. That costs has been removed from
the report’s questioned costs.



                                                         24
Audit of the Senior Texans Employment Program




6.      STEP’s Former Executive Director Diverted $5,062 of STEP Grant Funds for His
        Personal Use.

On two occasions Mr. Robert Girard directed the program to write STEP checks totaling $5,062
that he used to open a brokerage account in his name and to pay a personal debt.

Brokerage Account

On July 11, 1997, Mr. Girard opened a brokerage account with Schroder Wertheim & Co., Inc.
On the same day, Mr. Girard authorized a payment to Schroder Wertheim & Co., for $2,812.50.
The check authorization document describes the payment as being for “Safety Training -
Workers Comp. legal issues training, $2,800.00,” and “Freight, $12.50.” The cancelled check
(No. 001023) and the brokerage account statement shows that the check was deposited into
Mr. Girard’s brokerage account on July 14, 1997. The funds were used to buy 100 shares of
Golden St. Bankcorp stock on July 15, 1997. On June 29, 1998, the shares were sold for a profit
and a check for $3,108.60 was mailed to Mr. Girard. On July 15, 1998, Mr. Girard deposited
$2,000 of the check into his personal checking account and received cash of $1,108.60.

Payment of Personal Debt

On April 7, 1998, a letter, supposedly from the People’s Garden manager, was sent to Mr. Robert
Girard, STEP’s executive director stating that additional funding of $2,250 was needed to
provide intensive daily supervision and training to five STEP enrollees assigned to the garden.

The letter requesting the additional funds was written to appear that the People’s Garden
manager (at that time) composed and signed the letter. However, the People’s Garden former
manager advised that he did not write or sign the letter. He further advised that he had not seen
the letter until after Mr. Girard was terminated from the STEP in May 1999.

The People’s Garden former manager also stated that in addition to his signature being forged on
the letter, the contents of the letter were false. Intensive supervision or training was never
provided to STEP enrollees working at the garden. Furthermore, only two, not five, enrollees
were working at the garden at the time the letter was written.

Mr. Girard approved the payment for these fictitious “intensive supervision and training”
services, and on June 30, 1998 -- the last day of the program year -- a $2,250 check was written
to the People’s Garden. The check was deposited into the People’s Garden checking account on
August 14, 1998. On August 18, 1998, a $2,740 a People’s Garden check -- made payable to the
Norwest Bank Waco -- was deposited into Mr. Girard’s personal checking account. On that
same day, Mr. Girard wrote a personal check for $2,600 to Norwest Bank Waco to pay off a
personal vehicle loan.

OMB Circular A-122 requires that costs must be necessary, reasonable, and allocable to the
grant program to be allowable. These “personal” costs do not meet this standard.




                                                25
Audit of the Senior Texans Employment Program




In Our Draft Report, We Recommended

We recommended that the Assistant Secretary for Employment and Training disallow the $5,062
of the former executive director’s personal expenses. We recommended these unallowable costs
be recovered in cash as opposed to administrative offset against any future State SCSEP grants.

Auditee’s Response to Our Draft Report

The Association stated it could find no documentation or reasons for the checks that were issued.

OIG’s Conclusion

Our recommendation remains unchanged.




                                                26
Audit of the Senior Texans Employment Program




     AUDITEE’S RESPONSE TO DRAFT REPORT
                              (Attachments to response are on file in the
                                    Dallas Regional Audit Office)




                                                  27
Audit of the Senior Texans Employment Program




                                                28
Audit of the Senior Texans Employment Program




                                                29
